hawaiilawyer.com ®

D AMON K EY L EONG K UPCHAK H AST ERT
A LAW CORPORATION
1003 Bishop Street, Suite 1600
Honolulu, Hawaii 96813-6452
Telephone (808) 531-8031
Facsimile (808) 533-2242
E-Mail: rht@hawaiilawyer.com
Writer’s mobile: (808) 292-9938
Matthew T. Evans
Tred R. Eyerly
Kayla M. Fajota
Diane D. Hastert
Megumi Honami
Christine A. Kubota
Gregory W. Kugle
Kenneth R. Kupchak
Na Lan
Denis C.H. Leong
Megan L.M. Lim1
David P. McCauley
Adam N. Miller
Casey T. Miyashiro
Mark M. Murakami
Veronica A. “Nica” Nordyke
Anna H. Oshiro
Laurel E. Pepe
Loren A. Seehase
Douglas C. Smith
Robert H. Thomas2
Ross Uehara-Tilton
Kelly Y. Uwaine
Michael A. Yoshida
Madeleine M.V. Young2
Joanna C. Zeigler

Of Counsel
R. Charles Bocken
Jed Kurzban3
Judith A. Schevtchuk
C. F. Damon, Jr. (1926-2017)
Charles W. Key (1929-2008)
Admitted in Hawaii & Washington
2
Admitted in Hawaii & California
3
Admitted in Hawaii & Florida

1

August 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Callan Campbell, et al., v. United States of America,
S.Ct. No. 19-1252
Dear Mr. Harris,
The United States’ Brief in Opposition was filed on July 29, 2020.
The Petition for a Writ of Certiorari was docketed on April 28, 2020. The
petition, brief in opposition, and any reply brief is scheduled to be
distributed for the Court’s consideration no earlier than August 12,
2020.
We respectfully request, pursuant to Supreme Court Rules 15.5
and 30.4, and the Court’s Order dated March 19, 2020, that the time for
distribution of the petition, brief in opposition, and any reply brief to the
Court for its consideration be extended for an additional 14 days, to no
earlier than August 26, 2020. Petitioners’ counsel needs additional time
to file a reply due to difficulties relating to COVID-19, specifically:
working 100% remotely with no administrative support; the additional
time needed to accomplish business travel; and the additional burden of
coordinating communication with co-counsel due to scheduling
difficulties.
Undersigned counsel has communicated with counsel for the
opposing party, and the United States does not have an objection.

Providing business clients
worldwide access to
sophisticated legal advice
and exceptional service.

Very truly yours,
DAMON KEY LEONG KUPCHAK HASTERT
Robert H. Thomas

